                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

      Case Number: A-02030022                                                                        Page 1 of 1



            On 8 March 2002, we received an allegation of plagiarism involving an NSF proposal submitted by
            subjects I and 2.' We observed about two pages of material in the subjects' proposal that appeared
            to be substantially similar to material in an earlier NSF award.2 The similar material was part of the
            management portions of both the proposal and the award. The subjects' proposed project was
            significantly different from the award's supported project. Finally, we noted that the award listed
            the subjects, who both held appointments at the awardee institution, as participants and included
            copies of their resumes.

            We wrote to the subjects requesting an explanation. The subjects responded that they had
            permission to use these materials from the PI on the award, urging us to contact the PI. We
            contacted the PI on the award who said that he had provided the subjects with a copy of the award,
            on which each had participated, and, although he had not specifically said they should or should not
            copy the text, he thought it was appropriate that they did so because it was boilerplate material for
            the management of a similar type of project.

            This case is closed and no further action will be taken.




                                                                                                     -    -        -
111                   T         Agent          I        Attorney        I       supervisor   1               AIGI

111     Sign l date   I                        I                        I                        I
